                                                  NATIONAL SCIENCE FOUNDnr'ION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS '

                                             CLOSEOUT MEMORANDUM
                                                                                                1




Case Number: I03110063                                                                       page 1 of 1



         This investigation was initiated as a result of Program Income review of conference and
         workshop grants. Two matters were referred for investigation.

              (1 .)A workshop participant was provided $1 177.55 for participant support for hotel
                   expenses, while other participants were provided approximately $350.00. ~nvedti~ation
                   disclosed that the participant, who received the higher support, was a senior researcher
                   from Europe, who was invited to arrive prior to the workshop and stay beyond the
                   workshop so he could interact with students and researchers who sponsored the '
                   workshop. The Principal Investigator (PI) for the grant stated that request for this
                   additional support came from another senior scientist who was being honored at"the
                   workshop. The request was presented to and approved by the workshop commihee.
                   There is no indication that the additional support was for personal benefit and the senior
                   researcher from Europe did, in fact, stay and interact with students and researchers.
              (2.) The NSF Program Officer apparently participated in the workshop as an invited speaker.
                    We reviewed NSF regulations and found no regulation that restricted the participation of
                   an NSF Program Officer from attending and speaking at the workshop. While thk
                   Program Officer would have been involved with the decision to award the workshop
                   grant, the decision to make the award, and the approval for the travel to the workshop,
                   would have been approved by the Division Director.

         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
